           OFFICE OF
    THE INSPECTOR GENERAL
SOCIAL SECURITY ADMINISTRATION

   BENEFICIARIES INCORRECTLY
     IDENTIFIED AS PRISONERS

     October 2012   A-01-11-01120




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      October 3, 2012                                                                Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Beneficiaries Incorrectly Identified as Prisoners (A-01-11-01120)


           OBJECTIVE
           Our objective was to determine how beneficiaries were affected when the Social
           Security Administration (SSA) mistook them for prisoners.

           BACKGROUND
           SSA provides Old-Age, Survivors and Disability Insurance (OASDI) benefits to retired or
           disabled workers and their families and to survivors of deceased workers. 1 SSA also
           provides Supplemental Security Income (SSI) payments to financially needy individuals
           who are aged, blind, or disabled. 2 In Fiscal Year 2011, SSA paid about $770 billion to
           over 60 million beneficiaries. 3

           The Social Security Act generally prohibits benefits to individuals confined to a jail,
           prison, or certain other public institutions for committing a crime. 4 SSA obtains prisoner
           data from Federal, State, and local facilities. Once obtained, SSA verifies the prisoners’
           Social Security numbers (SSN). 5 If the SSNs verify, SSA electronically matches the




           1
               Social Security Act § 201, et seq., 42 U.S.C. § 401, et seq.
           2
               Social Security Act § 1601, et seq., 42 U.S.C. § 1381, et seq.
           3
               SSA, Fiscal Year 2011 Performance and Accountability Report, page 7, November 2011.
           4
               Social Security Act §§ 202(x)(1)(A) and 1611(e)(1)(A), 42 U.S.C. §§ 402(x)(1)(A) and 1382(e)(1)(A).
           5
             To verify a prisoner’s SSN, SSA compares the SSN along with other identifying information to its SSN
           records using its Enumeration Verification System (EVS). If EVS does not find a match, SSA takes
           additional steps to locate the SSN assigned to the prisoner.
Page 2 - The Commissioner


prisoner data against its benefit rolls. When the data match, the system creates a
record in SSA’s Prisoner Update Processing System (PUPS) and sends a PUPS alert to
SSA staff. 6

When an SSA employee receives a PUPS alert, he/she must verify the individual’s
identity and any other prisoner data, if necessary. If the employee determines that
benefits should be stopped, the employee inputs the suspension into PUPS, if possible,
and generally sends the beneficiary an advance notice. This notice informs the
beneficiary of the suspension. It also informs the beneficiary that if he/she protests the
suspension within a certain period, he/she can continue getting benefits until SSA
decides on the protest. 7 If SSA determines the beneficiary is not the prisoner based on
the protest, it resumes the individual’s benefits. When SSA resumes the individual’s
benefits, it is required to annotate the PUPS alert with an explanation for the
resumption. This annotation is important because it helps the next SSA employee if
there is a subsequent alert. 8

At the March 16, 2011 public hearing on SSA’s Compassionate Allowance program, 9 an
OASDI beneficiary stated that someone had stolen her identity and given it to the
authorities each time they went to prison. 10 With each incarceration, SSA’s systems
created a PUPS record for the beneficiary. As a result, SSA erroneously suspended
her benefits many times and assessed an overpayment of about $25,000. The
beneficiary also stated that she had to declare bankruptcy and became homeless. The
Commissioner of SSA, who was present at the hearing, expressed concern regarding
the matter. As a result, we conducted this review.

To perform our review, we obtained a file of 6.4 million people who had PUPS records
as of May 2011. From this file, we identified 309 beneficiaries (0.0049 percent) whom it
appeared SSA had incorrectly identified as prisoners. These beneficiaries had




6
    SSA, POMS, SI 02310.073 A and B (effective March 15, 2011).
7
  For OASDI benefits, the advance notice period is 30 days when SSA obtains the prisoner data through
a computer match and the beneficiary can protest the action. For SSI benefits, the advance notice period
is 10 days and the recipients can appeal the action. SSA, POMS, GN 03001.015 (effective July 16, 2004)
and SI 02301.300 (effective October 14, 2004).
8
  SSA, POMS, GN 02607.600 (effective June 25, 2004); GN 02607.700 A (effective August 24, 2004);
GN 02607.760 (effective May 29, 2009); GN 02607.870 (effective October 12, 2004); GN 03001.025
(effective November 15, 2011); SI 02301.310 (effective May 23, 2012); SI 02310.079 C (effective
May 29, 2001); SI 02310.080 A (effective June 16, 2005); and SI 02310.093 E (effective March 2, 2012).
9
  Compassionate Allowances are cases that SSA processes quickly because they have medical
conditions that are obviously disabling. For more information, see SSA OIG, Compassionate Allowance
Initiative (A-01-10-21080), August 2010.
10
 SSA, Compassionate Allowances Outreach Hearing on Autoimmune Diseases (March 16, 2011),
www.socialsecurity.gov/compassionateallowances/hearings031611.htm.
Page 3 - The Commissioner


confinement dates on their PUPS records ranging from 1991 to 2011. In May 2012, we
sent some of these 309 cases to SSA for review and corrective action. (See
Appendix B for additional information on our scope and methodology.)

RESULTS OF REVIEW
We found some beneficiaries who were adversely affected when SSA mistook them for
prisoners. Of the 309 beneficiaries in our population, 291 were adversely affected when
SSA erroneously suspended their benefits and generally assessed overpayments on
their records. 11 Furthermore, in 27 of these cases, the beneficiaries were adversely
affected in other ways.

•    In eight cases, SSA owed the beneficiaries $32,254 for the benefits it erroneously
     suspended. Because of our review, SSA paid $31,714 to seven of the beneficiaries
     in August 2012. The remaining case was still under review.

•    In 19 cases, SSA collected $16,014 from the beneficiaries to recover the erroneous
     overpayments. In some of these cases, SSA could have removed the overpayments
     from the records before the collections took place but did not. Furthermore, in all but
     12 of the 19 cases, SSA returned all the beneficiaries’ money. In these 12 cases,
     SSA owed the beneficiaries $6,017. Because of our review, SSA paid $4,298 to
     eight of the beneficiaries in August 2012. The remaining four cases were still under
     review.

Overall, SSA owed $38,271 to 20 beneficiaries (including 8 beneficiaries from the first
bullet and 12 beneficiaries from the second bullet). Because of our review, SSA paid
$36,012 of this money to 15 of the 20 beneficiaries in August 2012. The remaining five
cases were still under review.

Additionally, we found three beneficiaries SSA overpaid $21,435. 12 As of August 2012,
SSA had assessed $19,565 in overpayments for two of the cases and was still working
on the remaining case, which we estimate was overpaid $1,870. Two beneficiaries
were overpaid because their benefit records erroneously indicated that the Agency had
collected money from them to recover the erroneous overpayment. We also determined
that the Agency overpaid the other beneficiary because it miscalculated the payments it
owed the individual for the erroneous suspension.


11
  In 81 of these cases, the beneficiaries or SSA staff suspected that the prisoners stole the beneficiaries’
identities and used the stolen identities when they went to prison.
12
  For example, SSA received a PUPS alert on May 25, 2010 for an OASDI beneficiary from Tennessee.
The alert stated that the beneficiary had been in prison since June 9, 2009. Consequently, on
September 30, 2010, SSA suspended the individual’s benefits and determined he was overpaid $12,963.
After SSA obtained proof that the beneficiary was not in prison, the Agency resumed his benefits,
removed the overpayment from his record, and correctly paid him $700 for the benefits it erroneously
suspended. A few days later, the Agency issued the beneficiary a payment of $12,963 because the
individual’s benefit record erroneously indicated that it had collected this money from him.
Page 4 - The Commissioner


Of the 291 beneficiaries—194 were adversely affected because of mistaken identity,
and 97 were adversely affected for other reasons. These 291 beneficiaries represent
0.0046 percent of the 6.4 million people who had PUPS records as of May 2011. In the
remaining 18 cases in our population of 309, the beneficiaries were not adversely
affected since SSA correctly identified them as prisoners (see Chart 1). These findings
are small given that SSA paid about $770 billion to over 60 million beneficiaries in
Fiscal Year 2011.

                      Chart 1: Results of Review for the Population of 309
                                          Beneficiaries
                                                                         Adversely
                  Not Adversely                                         Affected by
                  Affected Since                                      Misidentification
                     Correctly                                        194 Cases (63%)
                   Identified as
                     Prisoners
                  18 Cases (6%)



                     Adversely
                    Affected for
                   Other Reasons
                   97 Cases (31%)




BENEFICIARIES ADVERSELY AFFECTED WHEN SSA INCORRECTLY IDENTIFIED
THEM AS PRISONERS

In 194 of the 309 cases in our population, SSA incorrectly identified the beneficiaries as
prisoners. As a result, SSA erroneously suspended their benefits and generally
assessed overpayments on their records. On average, SSA erroneously suspended the
benefits for 1 month (see Table 1).
Page 5 - The Commissioner


                                            Table 1
                         Number of Months SSA
                                                      Number of
                         Erroneously Suspended
                                                        Cases
                                Benefits
                        Less than 1 month                161
                        1 month                           12
                        2 months                           6
                        3 months                           5
                        4 months                           3
                        5 months                           3
                        6 months                           1
                        10 months                          2
                        62 months                          1
                                    Total                194

In 12 of these cases, the beneficiaries were adversely affected in other ways.

•   In five cases, SSA owed the beneficiaries $31,092 for the monthly benefits it
    erroneously suspended. SSA paid $30,552 of this money to four of the beneficiaries
    in August 2012 after it reviewed the cases based on our request. The remaining
    case was still under review. For example, in February 2010, SSA received a PUPS
    alert that an OASDI beneficiary from North Carolina was in prison. Later that month,
    SSA did an input on PUPS to suspend his benefits and sent him an advance notice.
    In April 2010, SSA suspended the individual’s benefits. In May 2010, SSA obtained
    proof that the beneficiary was not in prison. Consequently, SSA resumed his
    benefits. However, the Agency did not pay him $540 in monthly benefits it had
    erroneously suspended.

•   In the remaining seven cases, SSA collected $8,286 from the beneficiaries to
    recover the erroneous overpayments. In some of these cases, SSA could have
    removed the overpayments from the records before the collections took place.
    Furthermore, SSA returned all but $3,540 to five of the seven beneficiaries. SSA
    paid $3,277 of this money to four of the beneficiaries in August 2012 after it
    reviewed the cases based on our request. The remaining case was still under
    review. For example, in August 2005, SSA received a PUPS alert for an OASDI
    beneficiary from Louisiana. In November 2005, SSA did an input on PUPS to
    suspend his benefits and sent him an advance notice. When the advance notice
    period ended in December 2005, SSA suspended his benefits and assessed an
    overpayment on his record. Later, SSA obtained proof that the beneficiary was not
    in prison and resumed his benefits. However, SSA did not remove the overpayment
    from his record. As a result, SSA collected $263 from the beneficiary to recover the
    erroneous overpayment.
Page 6 - The Commissioner


SSA Did Not Always Follow Its Procedures for Processing PUPS Alerts

For 40 of the 194 beneficiaries whom SSA incorrectly identified as prisoners, SSA did
not follow its procedures for processing PUPS alerts. Had SSA followed these
procedures, it likely would not have incorrectly identified these beneficiaries as
prisoners. Most of these 40 beneficiaries received OASDI benefits.

•   Of the 40 beneficiaries, 27 had multiple PUPS alerts. The initial alerts had remarks
    indicating that the beneficiaries were not the prisoners, but SSA did not use this
    information to process the subsequent alerts.

    For example, on November 21, 2007, SSA received an alert that an OASDI
    beneficiary from California was in an Arizona prison. A week later, SSA did an input
    on PUPS to suspend his benefits and sent him an advance notice. When the
    advance notice period ended in December 2007, SSA suspended his benefits and
    assessed an overpayment on his record. About 2 weeks later, the beneficiary went
    to an SSA field office and signed a statement alleging he was not the prisoner, which
    SSA confirmed. At that time, SSA resumed his benefits, provided an explanation for
    the resumption in the remarks of the PUPS alert, and removed the overpayment
    from his record. In March 2008, SSA received another alert for this beneficiary
    stating he was in another prison in Arizona. Rather than use information from the
    first PUPS alert as proof the beneficiary was not the prisoner, SSA processed the
    second alert much like the first one and had the beneficiary sign another statement.

•   The remaining 13 beneficiaries did not receive an advance notice or received it
    about the same time the suspensions took place. For example, on
    February 9, 2009, SSA received an alert that an OASDI beneficiary from California
    was in prison. On March 9, 2009, SSA did an input on PUPS to suspend the
    individual’s benefits and sent him an advance notice. One day later, the benefits
    were suspended. However, they should have been suspended 30 days later. Soon
    after the suspension took place, the beneficiary received the advance notice, which
    prompted him to contact SSA and submit proof he was not the prisoner. Based on
    that proof, SSA suspected the prisoner had stolen the beneficiary’s identity and
    resumed the beneficiary’s benefits.

BENEFICIAIRIES ADVERSELY AFFECTED FOR OTHER REASONS

In 97 of the 309 cases in our population, SSA generally did inputs on PUPS to suspend
benefits and sent the beneficiaries advance notices. Most of these beneficiaries
received OASDI benefits. Before the advance notice period ended, SSA generally
received protests from the beneficiaries or someone on their behalf and obtained proof
the beneficiaries were not in prison. As a result, SSA generally did other inputs on
PUPS to resume the individuals’ benefits. However, these inputs generally did not
work. Consequently, SSA erroneously suspended their benefits and generally
assessed overpayments on their records. On average, SSA erroneously suspended the
benefits for less than 1 month (see Table 2).
Page 7 - The Commissioner


                                            Table 2
                         Number of Months SSA
                                                      Number of
                         Erroneously Suspended
                                                        Cases
                                Benefits
                        Less than 1 month                 81
                        1 month                           12
                        2 months                           2
                        3 months                           1
                        10 months                          1
                                    Total                 97

In 15 of these cases, the beneficiaries were adversely affected in other ways.

•   In three cases, SSA owed the beneficiaries $1,162 for the monthly benefits it
    erroneously suspended. SSA paid this money to the beneficiaries in August 2012
    after it reviewed the cases based on our request.
•   In 12 cases, SSA collected $7,729 to recover the erroneous overpayments. In some
    of these cases, SSA could have removed the overpayments from the records before
    the money was collected but did not. Furthermore, SSA returned all but $2,477 to
    7 of the 12 beneficiaries. SSA paid $1,021 of this money to four of the beneficiaries
    in August 2012 after it reviewed the cases based on our request. The remaining
    three cases were still under review.

Many of the inputs to resume the benefits did not work because SSA did not do
previous inputs to reflect the timely protests—which is required to ensure the system
does not suspend the individuals’ benefits while SSA is working on the protests. Other
inputs did not work because of systems limitations. According to SSA, systems
limitations exist under certain circumstances.

For example, SSA received a PUPS alert on June 17, 2002 for an OASDI beneficiary
from South Carolina. On June 21, 2002, SSA did an input on PUPS to suspend his
benefits and sent him an advance notice. On June 24, 2002, the beneficiary’s mother
protested the suspension. Later that day, SSA obtained proof that the beneficiary was
not the prisoner and entered the resumption action into PUPS. However, the input did
not work because SSA had not entered the protest action. As a result, PUPS
suspended the individual’s benefits and assessed an overpayment on his record for
which SSA collected $30. After SSA learned of its mistake, it resumed the individual’s
benefits through another system and repaid him the $30 it erroneously collected from
him.
Page 8 - The Commissioner


CONCLUSION AND RECOMMENDATION
We initiated this review because of a beneficiary’s comments at a public hearing in
March 2011. Based on our review, we found some beneficiaries had been adversely
affected because SSA incorrectly identified them as prisoners.

Specifically, of 6.4 million people with PUPS records, we identified 291 (0.0046 percent)
beneficiaries who were adversely affected. Of these 291 beneficiaries, SSA owed
$38,271 to 20 beneficiaries, and 3 beneficiaries owed SSA $21,435. In August 2012,
SSA paid $36,012 to 15 of the 20 underpaid beneficiaries and assessed $19,565 in
overpayments for 2 of the 3 overpaid beneficiaries. The remaining six cases were still
under review. These findings are very small given that SSA paid about $770 billion to
over 60 million beneficiaries in Fiscal Year 2011.
We recommend SSA finish working the remaining six cases.
AGENCY COMMENTS
SSA agreed with the recommendation. See Appendix C.




                                         Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
EVS      Enumeration Verification System
OASDI    Old-Age, Survivors and Disability Insurance
POMS     Program Operations Manual System
PUPS     Prisoner Update Processing System
SSA      Social Security Administration
SSI      Supplemental Security Income
SSN      Social Security Number
U.S.C.   United States Code
                                                                           Appendix B

Scope and Methodology
To accomplish our objective, we:

    •   Reviewed applicable sections of the Social Security Act and Social Security
        Administration (SSA) regulations, rules, policies, and procedures.
    •   Reviewed our July 2003 report, Follow-up on Prior Office of the Inspector General
        Prisoner Audits (A-01-02-12018).
    •   Obtained a file of 6.4 million people who had records on SSA’s Prisoner Update
        Processing System (PUPS) as of May 2011. From this file, we identified records
        that had (1) the Erroneous Person indicator, (2) a status of reinstatement, and
        (3) the same confinement and release dates. Through this analysis, we identified
        309 beneficiaries whom it appeared SSA incorrectly identified as prisoners. 1 For
        each case, we:
         Reviewed the following SSA systems, as needed: PUPS records, Master
          Beneficiary Record, Supplemental Security Record, Modernized Supplemental
          Security Income Claims System, Non-Disability Repository, and Online Retrieval
          System.
         Calculated the
           (1) number of months the beneficiary went without benefits because SSA
               incorrectly processed the case and the amount of these benefits due
               him/her,
           (2) amount of money collected from the beneficiary to recover the overpayment
               assessed because SSA incorrectly processed the case and the amount of
               this money due him/her, and
           (3) amount SSA overpaid the beneficiary because it incorrectly determined the
               amount due him/her.
           If we determined there was a payment issue, we sent the case to SSA for review
           and necessary action.
We conducted our audit between January and June 2012 in Boston, Massachusetts.
The entities audited were SSA's field offices and program service centers under the
Office of the Deputy Commissioner for Operations. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We tested the data obtained for our audit and determined them to be
sufficiently reliable to meet our objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective.

1
    These beneficiaries had confinement dates ranging from 1991 to 2011.
                  Appendix C

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      September 4, 2012                                                       Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Beneficiaries Incorrectly Identified as Prisoners”
           (A-01-11-01120)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.

           Attachment




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“BENEFICIARIES INCORRECTLY IDENTIFIED AS PRISONERS” (A-01-11-01120)


Recommendation 1

Pay the 19 beneficiaries in our population the $10,905 owed to them.

Response

We agree.

Recommendation 2

Recover the $20,876 from the four beneficiaries it overpaid.

Response

We agree.




[OIG Note: In August 2012, SSA took corrective action in all but five of the underpaid
cases and one of the overpaid cases. Therefore, we updated the report accordingly.]




                                              C-2
                                                                         Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   Phillip Hanvy, Audit Manager

Acknowledgments

In addition to those named above:

   Kevin Joyce, IT Specialist

   Toni Paquette, Program Analyst

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-01-11-01120.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
